<html>
<title> - THE EMPLOYMENT SITUATION: NOVEMBER 2010</title>
<body><pre>[Senate Hearing 111-816]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 111-816

                THE EMPLOYMENT SITUATION: NOVEMBER 2010

=======================================================================

                                HEARING

                               before the

                        JOINT ECONOMIC COMMITTEE
                     CONGRESS OF THE UNITED STATES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 3, 2010

                               __________

          Printed for the use of the Joint Economic Committee





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>








                      U.S. GOVERNMENT PRINTING OFFICE
  63-306                   WASHINGTON : 2011
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d3a2d321d3e282e293538312d733e323073">[email&#160;protected]</a>  







                        JOINT ECONOMIC COMMITTEE

    [Created pursuant to Sec. 5(a) of Public Law 304, 79th Congress]

HOUSE OF REPRESENTATIVES             SENATE
Carolyn B. Maloney, New York, Chair  Charles E. Schumer, New York, Vice 
Maurice D. Hinchey, New York             Chairman
Baron P. Hill, Indiana               Jeff Bingaman, New Mexico
Loretta Sanchez, California          Amy Klobuchar, Minnesota
Elijah E. Cummings, Maryland         Robert P. Casey, Jr., Pennsylvania
Vic Snyder, Arkansas                 Jim Webb, Virginia
Kevin Brady, Texas                   Mark R. Warner, Virginia
Ron Paul, Texas                      Sam Brownback, Kansas, Ranking 
Michael C. Burgess, M.D., Texas          Minority
John Campbell, California            Jim DeMint, South Carolina
                                     James E. Risch, Idaho
                                     Robert F. Bennett, Utah

                    Andrea Camp, Executive Director
               Jeff Schlagenhauf, Minority Staff Director









                            C O N T E N T S

                              ----------                              

                                Members

Hon. Carolyn B. Maloney, Chair, a U.S. Representative from New 
  York...........................................................     1
Hon. Kevin Brady, a U.S. Representative from Texas...............     3
Hon. Amy Klobuchar, a U.S. Senator from Minnesota................     5

                                Witness

Statement of Dr. Keith Hall, Commissioner, Bureau of Labor 
  Statistics, U.S. Department of Labor; Accompanied by: Mr. 
  Philip Rones, Deputy Commissioner, Bureau of Labor Statistics; 
  and Dr. Michael Horrigan, Associate Commissioner for Prices and 
  Living Conditions, Bureau of Labor Statistics..................     8

                       Submissions for the Record

Prepared statement of Representative Carolyn B. Maloney, Chair...    22
    Chart titled ``Monthly Change in Private Payrolls''..........    24
Prepared statement of Representative Kevin Brady.................    25
Prepared statement of Dr. Keith Hall, Commissioner, Bureau of 
  Labor Statistics, together with Press Release No. USDL-10-1662.    26
Chart titled ``In Past Economic Downturns, the Unemployment Rate 
  Was Far Lower When Congress Allowed Federal Unemployment 
  Benefits to Expire''...........................................    66
Letter transmitting Commissioner Hall's response to 
  Representative Cummings........................................    67

 
                       THE EMPLOYMENT SITUATION:
                             NOVEMBER 2010

                              ----------                              


                        FRIDAY, DECEMBER 3, 2010

             Congress of the United States,
                          Joint Economic Committee,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:36 a.m. in Room 
216 of the Hart Senate Office Building, The Honorable Carolyn 
B. Maloney (Chair) presiding.
    Representatives present: Maloney, Cummings, and Brady.
    Senators present: Klobuchar.
    Staff present: Andrea Camp, Gail Cohen, Colleen Healy, 
Jessica Knowles, Rachel Greszler, Jane McCullogh, Jeff 
Schlagenhauf, Ted Boll, and Robert O'Quinn.

OPENING STATEMENT OF THE HONORABLE CAROLYN B. MALONEY, CHAIR, A 
               U.S. REPRESENTATIVE FROM NEW YORK

    Chair Maloney. The meeting will come to order.
    I recognize myself for an opening statement. Today's 
hearing with Commissioner Hall will mark the last hearing that 
I will chair as the Chair of the Joint Economic Committee.
    Almost two years ago, shortly after the inauguration of 
President Obama, my first hearing was also with Commissioner 
Hall, and the news that he presented that day was rather grim. 
The previous month, the U.S. economy had shed a staggering 
654,000 jobs. Today's news is a little better. We are trending 
in the right direction, but not as strongly as we wanted. 
Today's employment report shows the economy added 50,000 
private-sector jobs last month, making November the 11th 
straight month of employment gains in the private sector. And 
we can see that in the chart over there.
    [Chart titled ``Monthly Change in Private Payrolls'' 
appears in the Submissions for the Record on page 24.]
    Since the beginning of the year, the economy has added 1.2 
million jobs in the private sector. Private payroll grew by an 
average of 79,000 jobs per month in the first quarter of 2010; 
118,000 jobs in the second quarter; and 124,000 jobs in the 
third quarter.
    While job creation has picked up, the unemployment rate 
remains unacceptably high. This morning's employment report 
showed that the unemployment rate edged up to 9.8 percent in 
November. In addition to overall private-sector job gains, the 
GDP grew by 2.5 percent in the third quarter of 2010 due to 
stronger consumer spending. This is the fifth consecutive 
quarter of growth.
    Retail sales have risen steadily for the past four months. 
Excluding the more volatile sales of cars and gasoline, retail 
sales have increased steadily since June. Surveys of both the 
service sector and the manufacturing sector show that growth is 
expected to continue.
    When I became Chair of the JEC in January of 2009, the 
economy was still reeling under the shocks of the Great 
Recession. One of the people who testified was Christina Romer, 
Chair of the Council of Economic Advisers, and she testified 
that our economy endured shocks during this recession that were 
even greater than the economic shocks of the Great Depression.
    This Committee has closely monitored the employment 
situation and tracked its rebound. Over the past two years, the 
Joint Economic Committee held over 15 hearings and issued over 
40 reports. In 2010, consistent with its mission to monitor the 
employment situation of the country, the JEC focused on job 
creation, holding hearings on problems in the labor market and 
solutions to spur employment.
    Job creation was also the central focus of the JEC Annual 
Report, our mandated analysis of the Economic Report of the 
President, released earlier this year.
    While the economic shocks of the Great Recession will take 
time to heal, the economy has made progress in the past year. 
The policies that Democrats in Congress quickly put into place 
over the last year are working. Policies do matter.
    We passed the HIRE Act, which provides a payroll tax credit 
for businesses that hire unemployed workers. We passed 
legislation to promote hiring by smaller businesses, the 
engines of job growth in our economy; provided additional tax 
incentives to small businesses, including the $30 billion 
Access to Credit Loan Program; and raised the cap on SBA 7(a) 
loans from $2 million to $5 million.
    We extended aid to states to pay for their increased 
Medicaid costs, and we provided additional funding for 
teachers. The Department of Education estimated that 140,000 
teacher jobs were saved because of the increase in funding.
    We passed legislation to help our domestic manufacturers by 
reducing tariffs. We also extended Unemployment Insurance 
benefits to unemployed workers who have been hard hit during 
this recession. The most recent extension did not raise the 
number of weeks that unemployed workers could receive benefits, 
but it did reauthorize the program so that unemployed workers 
could continue receiving those critical benefits.
    However, we are all aware that the latest extension of 
Unemployment Insurance Benefits ran out this week. For most of 
the unemployed, the expiration of these benefits will mean that 
unemployed benefits will stop as soon as they enter their 27th 
week of unemployment. This comes at a cruel time when more than 
40 percent of the unemployed have been out of work at least 27 
weeks.
    If Congress does not act quickly to renew these benefits, 
nearly 2 million unemployed workers will lose their benefits 
during the holiday season.
    Although preliminary reports show a bump up in consumer 
spending on Black Friday, the loss of unemployment benefits 
will have a significant impact on retail spending in the weeks 
and months to come. Prematurely ending the Federal Unemployment 
Insurance Benefits Program will drain the economy of $80 
billion in purchasing power and cost the economy up to 1 
million jobs over the next year.
    According to the nonpartisan Congressional Budget Office, 
unemployment benefits are one of the most effective tools for 
boosting economic growth and employment. Allowing the Federal 
Unemployment Insurance Program to expire when the unemployment 
rate is well over 9 percent would be absolutely unprecedented.
    For every recession that has called for Congress to provide 
emergency unemployment benefits over the past six decades, 
Congress has never let those benefits expire with the 
unemployment rate above 7.4 percent.
    This is a tragic time to break from precedent. It is unfair 
to the millions of families counting on these benefits, and 
unwise for an economy that is still recovering from the Great 
Recession.
    I hope that we can count on our Republican colleagues in 
both chambers to do the right thing and vote to maintain the 
current Federal Unemployment Insurance Program.
    I yield back the balance of my time, and I recognize my 
good friend and colleague on the other side of the aisle, 
Congressman Brady.
    [The prepared statement of Representative Maloney appears 
in the Submissions for the Record on page 22.]

        OPENING STATEMENT OF THE HONORABLE KEVIN BRADY,
                A U.S. REPRESENTATIVE FROM TEXAS

    Representative Brady. Thank you, Madam Chairwoman. Today we 
hold the last regularly scheduled employment hearing with the 
Bureau of Labor Statistics in the 111th Congress. Like all 
Americans hoping for an economic turnaround, this has been a 
difficult two years for members of the Joint Economic Committee 
with employment reports month after month showing large numbers 
of our fellow Americans out of work with stubbornly high rates 
of unemployment. But the focus of this Committee on the 
employment situation is a critical part of its function as no 
other aspect of the nation's economic wellbeing is more 
important than the ability of our citizens to find productive 
work.
    Dr. Hall has had the difficult task of presenting the many 
reports on the bleak employment conditions to us. He has done 
so in a professional and insightful manner. I want to thank him 
and his staff at the Bureau of Labor Statistics for the effort 
they make to compile the employment data in meaningful ways and 
for answering our questions. I welcome Dr. Hall again this 
morning.
    Chairwoman Maloney has held many additional hearings on 
various aspects of the labor market. I want to thank the 
Chairwoman for her compassion and dedication in setting the 
Committee's agenda. We appreciate her leadership in many ways, 
and again thank you for your many months and many hours of hard 
work.
    Senator Brownback will be leaving the U.S. Senate next year 
to assume his new duties as the Governor of the State of 
Kansas. I sincerely thank him for his service as the Ranking 
Member on this Committee, and congratulate him on his new 
leadership position. All the best to you, your family, and the 
State of Texas--or the State of Kansas. I'm so used to saying 
that, it just comes out.
    [Laughter.]
    I didn't put ``great'' in front of it, but it was in my 
mind. We wish the best to Senator Brownback.
    As we approach the end of the year and of this Congress, 
the national employment picture unfortunately remains bleak. 
The unemployment rate increased to 9.8 percent mainly due to an 
increase in the number of jobs lost, not to an increase of new 
job seekers. And this month's 39,000 increase in payroll 
employment was very disappointing given the expectations. Worse 
still is the fact that we have lost 101,000 payroll jobs since 
the recession officially ended 17 months ago. Think about that. 
Despite nearly $5 trillion of fiscal and monetary stimulus, we 
have 101,000 fewer jobs in America than when the recession 
officially ended. And if we were to compare today's 9.8 percent 
unemployment rate to what the White House promised when we 
passed that major stimulus, they projected that unemployment 
would be at 7 percent this month instead of the staggering 9.8 
percent.
    This recovery remains painfully slow, held back I believe 
by consumers doubtful of the President's ability to manage this 
economy, and businesses discouraged by watching the Democrats' 
tax hikes and job-blocking regulations.
    Yesterday's actions by the House to raise taxes on the very 
consumers and small businesses most likely to pull us out of 
this poor economy, I think, is more of the same failed economic 
policies that have hindered America's recovery.
    Economic indicators generally tell us that we are just 
making a painfully slow recovery. In November, total payroll 
employment was not significantly different than it was 17 
months ago. Unfortunately, this recovery is too weak and 
private sector growth is too slow to reduce the unemployment 
rate appreciably, while the federal work force thrives.
    In contrast, by the 17th month of the Reagan recovery after 
the severe 1981-82 recession, total payroll employment had 
increased by 5 million and the unemployment rate had fallen by 
3.1 percentage points.
    Why is the current recovery so weak? Among the timeliest 
explanations is this: With less than one month to go before the 
tax bomb, the nearly $4 trillion tax bomb goes off, Americans 
are facing dire uncertainty. We cannot expect small, mid-size 
or even larger businesses to take on large numbers of 
additional employees when the government is raising the cost of 
employing them gainfully.
    Yesterday's House vote on a bill that is dead on arrival in 
the Senate was a terrible waste of time. I don't mean to be too 
blunt, but it was also I think a dumb economic move. No wonder 
substantial numbers of jobs aren't being created in America.
    And to make matters worse, within a few days the Federal 
Government will run out of money. Congressional Democrats and 
the Administration have not been attending to their 
responsibilities. A frantic rush for band-aid fixes is no way 
to provide guidance to this economy.
    In addition to the looming increases in anti-growth tax 
rates, the out-of-control federal spending, and the enormous 
national debt buildup, I have many times addressed the 
Democrats' ill-conceived health care and energy policies and 
the failed stimulus. I will not repeat those points here, but 
the burdens and uncertainty they create contribute to the 
fundamental reasons why this recovery is not recovering--why 
this economy is not recovering faster.
    If we are to see faster economic growth and more rapid job 
creation, the Administration will have to relent from wasteful 
redistributionist policies and the futile attempt to compensate 
for them with economic pump-priming measures, be they fiscal or 
monetary.
    The government cannot take up positions against business, 
investment, wealth creation, domestic oil, gas, and coal 
production, and free trade and then expect the economy to grow 
based on minimum wage increases, extensions of unemployment 
benefits, and increased subsidies to a number of causes. The 
U.S. economy does not work this way, and I doubt that there are 
any that do. The Administration has been hearing as much from 
national leaders around the world, and I am hopeful it will 
listen.
    Madam Chairwoman, Dr. Hall, I look forward to hearing your 
testimony.
    [The prepared statement of Representative Brady appears in 
the Submissions for the Record on page 25.]
    Chair Maloney. I thank the gentleman for his comments. I 
feel I must respond to some inaccuracies.
    We have made progress during the past year of the Obama 
Administration by adding almost 1.2 million private-sector 
jobs. Compare that to the 8 years of former President Bush, 
when this country lost 663,000 private-sector jobs. Although 
President Bush inherited over a $5 trillion surplus, he left 
with a huge deficit and debt. And indeed, the last month he was 
in office, this country lost over 750,000 jobs.
    The Bush tax cuts did not help the Bush Administration 
create jobs; in fact, overall they lost jobs in his 
Administration.
    With the focus on the economy, we are moving in the right 
direction under President Obama. Just yesterday we passed a tax 
cut to all Americans, and it has now gone to the Senate. We 
have moved the process forward, and we look forward to the 
response of the Senate so we can move forward in a balanced 
direction to create jobs and grow this economy.
    I now recognize the distinguished Senator, the Great 
Senator Klobuchar.

   OPENING STATEMENT OF THE HONORABLE AMY KLOBUCHAR, A U.S. 
                     SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much. Thank you, 
Congresswomen Maloney, Madam Chairwoman.
    I want to thank you for your service on this Committee. It 
has really been an honor. And I also would join in with 
Congressman Brady in commending you for the way you have run 
these meetings.
    Congressman Brady, thank you for your leadership. I am 
looking forward to, I hope, continuing to serve on this 
Committee next year. I think there is a lot of good work that 
we need to do when it comes to jobs and the economy, and I 
guess we start here today.
    No one is pleased when we have this unemployment rate. But 
at the same time, I also think the people of this country have 
understood that we could not dig ourselves out of this hole in 
one month; that it was like, someone made the analogy of a 
freight train going 200 miles per hour. The way the Wall Street 
crisis occurred and everything else that happened in this 
country. So there are some glimmers of hope here: the 39,000 
jobs that were added in November to the economy.
    And it is important to note that we are now one month shy 
of one year straight of employment gains in the private sector. 
Of course, none of it is happening as quickly as we would like.
    I was listening to Congressman Brady, and I agree with some 
of what he has said about the exports, trade, some of those 
things, but I will say that we have seen some improvements 
with, for instance, consumer confidence, where it's hit its 
highest level since the financial crisis began with almost 4 in 
10 Americans saying the economy is now on the right track.
    With growing consumer confidence, it is no surprise to 
learn that retail sales surged up 6 percent in November for the 
most promising start of the holiday season in three years. We 
care about this in Minnesota. It is a serious matter. We are 
the home of both Target and Best Buy--I like hawking my 
companies as the holiday season approaches--and they both saw 
some promising lines of customers out there.
    The other piece of this is the fact that there are more 
things that we need to do going forward. I would first of all 
point to the work that needs to be done with exports for small- 
and medium-sized businesses. We've got to start with the small 
business bill. But also, looking at some of the barriers, the 
red tape barriers to come of our most productive industries 
that have the highest potential for exports. I use the example 
of Medical Device, which is largely based in Minnesota, where 
we've seen a 12 percent decline in FDA approvals. And with that 
has come less investment, a third less investment, as well as 
investment going to places in Europe where the safety approval 
processes move more quickly.
    Tourism, I think I see an easy solution there. We have done 
a lot with passing the Travel Promotion Act, so we can finally 
promote our country overseas. Yet, when you find out the 
startling statistic that for people in China who want to get a 
tourist visa to visit our country, it takes 50 days average. If 
they want to go to Great Britain, it takes 10 days.
    Every time a foreign tourist comes to America, they spend 
an average of $4,000. We've lost 20 points in the international 
tourism business since 9/11. Easy solutions are there, in terms 
of improving our processes, so it's easier for tourists to 
visit our country.
    I think those are things that we should be doing and 
looking at as we consider how Washington can truly help to 
create private jobs. The other piece of this, which was 
mentioned by the Congressman, is the unemployment. There are a 
lot of people out there, 15.1 million Americans, who have lost 
their jobs through no fault of their own.
    Bad decisions that were made on Wall Street have resulted 
in them not being able to find jobs on Main Street. So I 
believe that it is very important that we continue making 
unemployment benefits available to these Americans.
    The last thing I would say is, in response to some of 
Congressman Brady's comments about the tax bills that are 
before us, I am very focused on the deficit right now. Today 
the Deficit Commission is coming out with their 
recommendations. I don't think many Members of Congress would 
say they agree with everything in that report--I know I don't. 
But at the same time, I was heartened to see that people from 
diverse political backgrounds, as Senator Durbin who is now 
supporting that report, as well as Senator Conrad and the 
Democratic side now joined by Senator Coburn and Senator Crapo, 
were able to say we need to advance this report and move these 
ideas forward.
    Contained in that report are recommendations along the 
lines of what we are talking about now, about the Bush tax 
cuts. Of course, the middle class needs to have these tax cuts 
continued, given the economic difficulties that we are now 
facing. But when you go up to the upper end, when you even go 
up to, say, the million dollar level, millionaires, people 
making a million dollars a year, they've been getting an 
average of $100,000 back from these tax cuts. And as we look at 
some of the recommendations from the Deficit Commission, I 
think we would be blinding ourselves if we didn't at least look 
at the choice of looking at someone making over $250,000 or 
someone making over $1 million a year, where you can bring in 
either, depending on where you set it, $400 billion over 10 
years on the deficit, or $700 billion if you set it at 
$250,000, that is a chunk of change.
    So as we look at how we are going to get our country out of 
this economic rut, reducing our deficit will be key. It is 
going to add confidence to the markets if we show that we are 
doing something in the long term, and it is certainly going to 
be better for our children who are inheriting this debt.
    So I don't think it is just a Band-Aid to look at where we 
revert to the Clinton levels where, by the way, things were 
much more prosperous in this country. Keeping those Bush 
levels--I just again will emphasize--up to $1 million, imagine 
it. Millionaires would still get the Bush tax cuts up to $1 
million. Then it simply reverts to the Clinton levels. That is 
what this debate is about.
    Thank you very much.
    Chair Maloney. Thank you. I now recognize Commissioner 
Hall--but first I would like to introduce him. He is the 
Commissioner of the Bureau of Labor Statistics for the U.S. 
Department of Labor.
    Dr. Hall also served as Chief Economist for the White House 
Council of Economic Advisers for two years under President 
George W. Bush. Prior to that, he was Chief Economist for the 
U.S. Department of Commerce. Dr. Hall also spent 10 years at 
the U.S. International Trade Commission.
    Thank you very much for your public service, and we now 
recognize you for as much time as you desire. Thank you.

  STATEMENT OF DR. KEITH HALL, COMMISSIONER, BUREAU OF LABOR 
   STATISTICS, U.S. DEPARTMENT OF LABOR; ACCOMPANIED BY: MR. 
PHILIP RONES, DEPUTY COMMISSIONER, BUREAU OF LABOR STATISTICS; 
AND DR. MICHAEL HORRIGAN, ASSOCIATE COMMISSIONER FOR PRICES AND 
         LIVING CONDITIONS, BUREAU OF LABOR STATISTICS

    Commissioner Hall. Madam Chair and Members of the 
Committee:
    Thank you for the opportunity to discuss the employment and 
unemployment data we released this morning.
    Nonfarm payroll employment was essentially unchanged in 
November, and the unemployment rate edged up to 9.8 percent. 
The jobless rate had been 9.6 percent in each of the prior 3 
months.
    Payroll employment has increased by an average of 86,000 
per month since its recent low point in December of 2009. In 
November, temporary help services and health care added jobs, 
while employment fell in retail trade.
    Temporary help services employment increased by 40,000 over 
this month. Since the industry's most recent low in September 
2009, employment has grown by 494,000.
    In November, health care employment rose by 19,000, 
including a gain of 8,000 in hospitals. Thus far in 2010, the 
health care industry has added an average of 21,000 jobs per 
month, about in line with average monthly growth in 2009.
    Retail trade employment decreased by 28,000 in November, 
including declines in department stores, and in furniture and 
home furnishing stores. Other major service-providing 
industries showed little employment change in November.
    Manufacturing employment changed little over the month. 
Following job growth earlier in 2010, factory employment has 
been relatively flat on net since May. Elsewhere in the goods-
producing sector, construction employment also changed little 
in November, while mining employment continued to trend up.
    Turning now to measures from the survey of households, the 
unemployment rate edged up to 9.8 percent in November. Of the 
15.1 million persons unemployed in November, 41.9 percent had 
been jobless for 27 weeks or more. That proportion has been 
essentially unchanged since August. Among the employed, there 
are 9 million individuals working part time in November who 
preferred full-time work, about the same as in October.
    The labor force participation rate was unchanged at 64.5 
percent in November. Among those outside the labor force--that 
is, persons neither working nor looking for work--the number of 
discouraged workers in November was 1.3 million, up from 
861,000 a year earlier. These individuals were not looking for 
work because they believe no jobs were available for them.
    In summary, the unemployment rate edged up to 9.8 percent 
in November, and payroll employment was essentially unchanged.
    My colleagues and I would now be glad to answer your 
questions.
    [The prepared statement of Commissioner Hall, together with 
Press Release No. USDL-10-1662, appears in the Submissions for 
the Record on page 26.]
    Chair Maloney. Well thank you, Commissioner Hall. As you 
know, this is my last hearing as Chair of the Joint Economic 
Committee, so I would like you to give us the best news that 
you have. What is the best news that you have on the economy?
    Commissioner Hall. Well, there were industries that did 
grow this month in terms of employment. Temporary help services 
rose 40,000 in the month. Health care also added jobs, about 
19,000 jobs. Transportation and warehousing employment edged 
up. Leisure and hospitality employment edged up.
    And a little-cited number, the Diffusion Index, giving us 
some idea of how many industries are growing employment and how 
many are losing employment, the Diffusion Index was 52 percent, 
was 52 this month. So that shows that more industries are 
adding jobs than are reducing jobs at the moment.
    I see those as sort of the highlights.
    Chair Maloney. Thank you. That's good to hear.
    How does this recovery compare with the recoveries from 
past recessions that were not as deep as this one?
    Commissioner Hall. The last two recessions both had slow 
recoveries relative to other recessions. So far, this recession 
has fallen right in I think with those last two recessions--the 
recoveries from the last two recessions.
    We're probably a little bit ahead of the recovery in the 
2001 recession, but we're a little bit behind the 1990 
recession. And of course recessions prior to that were a bit 
deeper. They've had quicker recoveries than we've had so far.
    Chair Maloney. Is there any evidence that the holiday 
season hiring this year will be merrier than last year?
    Commissioner Hall. Well I would say the early employment 
buildup in October was a little bit ahead of last year. In 
fact, it was a fair amount ahead of last year. But November has 
now fallen back a bit. The employment buildup was a little bit 
less. So I'd say on the whole we're looking, in terms of the 
employment buildup for the holidays, we're looking at about the 
same as last year.
    Chair Maloney. Does it look like over-qualified workers 
will still fill positions that might otherwise have gone to 
less skilled or younger workers? Is that happening in the 
economy?
    Commissioner Hall. It's hard for us to say on that, since 
we sort of count the numbers. So it's not obvious, at least in 
the data we collect, what the answer to that question is.
    Chair Maloney. Could you give us a rundown on demographic 
groups on recovery? How do African American men fare? African 
American women? Hispanic men and women? How are they faring in 
the employment situation?
    Commissioner Hall. Sure. For African Americans, the 
unemployment rate went up a little bit. It's at 16 percent for 
November, which of course is quite a bit higher than the 9.8 
percent overall. For Hispanics it remains at 13.2 percent, 
which is also quite a bit above the average unemployment rate.
    And both unemployment rates are well above the unemployment 
rate prior to the start of the recession.
    Chair Maloney. At an earlier JEC hearing, you reported on 
the high rates of unemployment among women who are the sole 
supporters of their families. Are these women still 
experiencing extremely high rates of unemployment?
    Commissioner Hall. The answer is, yes. The unemployment 
rate for women who maintained families is 13 percent, again 
well above the unemployment rate overall.
    Chair Maloney. And compared to other women who are not 
heads of their families? Is unemployment higher than among 
women generally?
    Commissioner Hall. Well, yes. For adult women the 
unemployment rate is about 8.4 percent, so 13 is quite a bit 
above that.
    Chair Maloney. Okay. Thank you.
    Mr. Brady.
    Representative Brady. Thank you, Madam Chairman.
    Dr. Hall, last month 390,000 Americans were laid off or 
lost their part-time jobs; 15.1 million are now unemployed, 
cannot find work. The Federal Reserve Board has lowered its 
projections for economic growth going forward; so has the Blue 
Chip Consensus.
    I thought it was important for you to acknowledge that 
compared to the severe recession prior to 1990, 1981-1982, that 
that was a much quicker recovery. Because this recovery is very 
subpar, about 2 to 3 times slower than the rate of recovery 
after '81 and '82.
    I think--I'm going to ask you, given how slow job growth is 
going, how many years will it take to get back to the Bush year 
average unemployment of 5.5 percent, very slow?
    One other point I want to make, if I could, I want you to 
think about that answer, is that psychology really plays a key 
role in economic recovery. Yesterday's vote was a good example 
of how to discourage job creation.
    Think about who you are looking to tax. You're going to 
raise taxes on the consumers in the upper income brackets who 
control one out of every three dollars going into our retail 
stores.
    So those most likely to be able to boost consumption will 
be spending a greater--sending a greater portion of their 
dollars to Washington rather than circulating it around in a 
local economy.
    And small businesses, which are the driver of job creation 
in America by far, half of all small business income will be 
taxed under that new law. Not all small businesses--in fact, if 
you just look at, if you count Tax ID numbers, it's only about 
3 percent, those 3 percent are the most productive and actually 
create the most revenue and create the most jobs, half of that 
income will be taxed at a higher rate under those new taxes.
    It's hard to believe that either hammering consumers who 
can help pull us out, or the small businesses that can create 
jobs, is a very good economic move.
    And I also question the myth about that money going to 
reduce the deficit. In the last two years, if you look at the 
seven, technically eight bills, that have gone to the White 
House and been signed by the President that raised taxes, $625 
billion, almost as much as this tax increase they voted to do 
yesterday, $625 billion, can anyone wager how much of that 
money went to reduce the deficit?
    The answer is zero. Not a dollar went to reduce the 
deficit. In fact, they spent all the tax increases and doubled 
it. So it's like being way over your credit card limit. You go 
ask for help to pay it down. Then you take the money and not 
only do you not pay it down, you spend that and twice more to 
add to the deficit.
    So I think most consumers, most of the public understand 
that myth about taxes and the deficit, that money will only go 
to an expanded government. Having said that, again, I'm always 
appreciative of how difficult this economy is, appreciative of 
the low unemployment rate we had prior to President Obama, and 
I'd like to know how long will it take us at this rate, how 
many years will it take us to get back to that 5.4, 5.5 percent 
average?
    Commissioner Hall. I think the way I would characterize 
what is going on right now is we've had steady job growth all 
of this year. And that's good. We've added 951,000 jobs this 
year. But that comes to about 86,000 per month. And because the 
population constantly grows and the labor force constantly 
grows, you need a certain growth in payroll jobs to accommodate 
the growth in the labor force.
    Representative Brady. Is that around 100,000, roughly?
    Commissioner Hall. I would say it's a bit higher. I would 
say you need somewhere around 130,000 plus.
    Representative Brady. To break even?
    Commissioner Hall. To break even. So I would say so far 
this year the 86,000 per month is not enough to start lowering 
the unemployment rate. And I think obviously this month we've 
had the tick up in the unemployment rate. That's reflecting 
that the job growth is not strong enough to start reducing it.
    So it makes it really kind of impossible to calculate how 
long it's going to take, because we're going to need stronger 
job growth to start lowering the unemployment rate.
    Representative Brady. Have there been some projections out 
there that you're aware of?
    Commissioner Hall. No--I tend not to look at them, since we 
deal in the actual data. We stay away from trying to forecast 
this.
    Representative Brady. My sense is that last Christmas time 
when economic growth looked like it was starting to pick up, 
you know, fairly strongly, I think people, economists were 
estimating it would take four to five years. Now that that 
economic growth has slowed by almost half, you know, now we're 
looking at, you know, heading toward hopefully not the end of 
this decade, but the time frame clearly is being extended each 
month. I hope we can come up with the policies that can get us 
not just 130,000 each month, but, you know, a more robust 
200,000 and above in order to get these 15 million people back 
to work.
    Thank you, Dr. Hall.
    Chair Maloney. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Chair Maloney.
    I always am curious if you see any geographic trends, 
Commissioner Hall, when you look at the United States. I know 
when we were in the midst of this recession we saw that there 
was just a patchwork of which states were doing better, which 
states were doing worse. There wasn't really a regional bias.
    And I wonder if you see any regional differences in terms 
of improvements?
    Commissioner Hall. I'm not sure there's a clear pattern. I 
can give you some idea of where the different regions sit at 
the moment.
    For example, the Northeast Region of the United States, the 
employment is down about 3.8 percent from before the recession. 
That's at the low end. And the West is down about almost 8 
percent. So there are some differences by region. The South is 
down about 4.8----
    Senator Klobuchar. What do you mean by ``down''? That the 
unemployment is down more?
    Commissioner Hall [continuing]. No, I mean the number of 
payroll jobs----
    Senator Klobuchar. Are down, employment is down?
    Commissioner Hall [continuing]. Yes.
    Senator Klobuchar. For the West.
    Commissioner Hall. Yes.
    Senator Klobuchar. Okay.
    Commissioner Hall. Other than that, the State patterns, at 
least certainly month to month, are really hard to 
characterize.
    Senator Klobuchar. And which states have the highest 
unemployment? And I know these numbers lag behind where your 
number is for today.
    Commissioner Hall. Yes, they lag behind a month. So it's 
not too old. Right now the highest unemployment rates are 
Puerto Rico, Nevada, Michigan, and California, Florida, Rhode 
Island, those are all states with particularly high 
unemployment.
    Senator Klobuchar. And the lower unemployment states?
    Commissioner Hall. North Dakota, South Dakota, Nebraska, 
New Hampshire, Vermont. Then obviously there's quite a lot in 
between.
    Senator Klobuchar. Very good.
    Commissioner Hall. There's no obvious patterns.
    Senator Klobuchar. How about small business hiring? Earlier 
this week, Automatic Data Processing reported that of the 
93,000 private-sector jobs they saw added last month, 54,000 of 
the jobs were created by businesses with fewer than 50 
employees. Do you have data that supports that? And does small 
business hiring serve as any kind of an indicator for future 
economic growth?
    Commissioner Hall. Our data on size of business lags behind 
quite a bit. You know, I think our most recent data only has us 
through May, or something like that. So it still lags behind a 
bit.
    The job loss in this particular recession was really spread 
out. A much higher percentage of the job loss was in small 
establishments than in the last recession, for example. And I 
think the recovery so far, at least through the early part of 
this year, a lot of the recovery was in the larger 
establishments and not so strongly in the smaller ones.
    Senator Klobuchar. That would make sense, because our 
unemployment in Minnesota is at 7.1 percent, and we've actually 
seen--we're number one in the country per capita for Fortune 
500 companies now. So that would explain part of why we have a 
lower unemployment rate I think.
    The other thing I wanted to ask about, you mentioned the 
part-time job openings. You know, we found in our state that 
job openings went up 32 percent in September, but 42 percent of 
the openings are for part-time jobs. And you've seen an 
increase in part-time jobs. How many people did you say that 
would like to work full time but are working part time?
    Commissioner Hall. Right now there are almost 9 million 
people who are part time for economic reasons.
    Senator Klobuchar. And what do you see as a trend for that?
    Commissioner Hall. That hasn't changed a lot over the last 
few months. I mean, it's changed a little bit but not a 
significant amount. So that's been sort of holding.
    Senator Klobuchar. And the Veterans numbers? You know, I 
ask you that every month, where those are. I always find it 
disconcerting and discouraging that our Veterans coming back 
from Iraq and Afghanistan have higher unemployment. You and I 
have talked about it before. They left when they were maybe in 
a job, and now that job is no longer there, and so they are put 
at a disadvantage. What are those numbers like?
    Commissioner Hall. The Gulf War Era II Veterans still have 
a higher unemployment rate. It's about 10 percent as opposed to 
9.1 percent for non-Veterans.
    Senator Klobuchar. And has that gotten a little better 
lately? Or is it about the same?
    Commissioner Hall. It actually has--well, it's hard to look 
at this data month to month because the sample size is not 
large, but it's up from about 9.6 percent a year ago. So it is 
still up over the last 12 months.
    Senator Klobuchar. There are some proposals I won't go into 
now to help some of them get jobs and use the skills that 
they've learned, especially with paramedics, those kinds of 
things.
    The last thing I wanted to ask you was: I am still 
concerned, as I know you are, about the number of long-term 
unemployed Americans. I recently got a letter from someone in 
Minneapolis, Jean, who wrote saying:
    I lost my benefits in August. I still have not been able to 
find a job. I don't care about Minnesota's unemployment rate 
being lower. Unemployed is unemployed.
    Do you see any promising signs for the millions of 
unemployed Americans like Jean from Minneapolis?
    Commissioner Hall. I would have to say, unfortunately, the 
very large number of long-term unemployed hasn't made a lot of 
movement. Of the 9.8 percent unemployment rate, 4.1 percentage 
points of that is long-term unemployed. And it's been over 4 
percent for over a year now. And that is an extremely high 
level.
    Senator Klobuchar. So you see my interest in some of these 
longer term competitive issues with the exports, and really 
looking at what are ways that we can get rid of some of the 
obstacles for creating these private sector jobs. Because given 
that 95 percent of our potential customers are outside of our 
country, I really believe that the way we are going to get out 
of this is by making things again, by exporting to the world in 
any big way.
    Because right now we are just kind of hanging in there, it 
seems to me, and are obviously doing much better than we were, 
as the Congresswoman pointed out, a few years ago but still not 
getting to that point that we want to be. Correct?
    Commissioner Hall. Yes.
    Senator Klobuchar. Okay. Thank you, Commissioner.
    Chair Maloney. Thank you, Commissioner Hall. What was 
November's long-term--oh, excuse me, Elijah, I'm sorry. You 
came in and I didn't see you. Elijah Cummings is recognized.
    Representative Cummings. Thank you very much, Madam Chair. 
I know this is your last hearing, and I want to thank you for 
your leadership.
    Chair Maloney. Thank you.
    Representative Cummings. You've done an outstanding job 
addressing the very, very many sensitive issues and difficult 
issues, and the reports and the research that the staff has 
done under your leadership has been extremely helpful to the 
entire Congress, and I want to thank you.
    Chair Maloney. Thank you.
    Representative Cummings. Commissioner, how are you doing?
    Commissioner Hall. I'm doing well, thank you.
    Representative Cummings. Good. What are the current trends 
in worker productivity? And what is the impact of these trends 
on wages?
    Commissioner Hall. The productivity trends have been rather 
high, actually. And, you know, what usually happens after a 
recession, the early stages of a recovery, productivity gets 
very high. In large part I think it is because basically 
businesses bring back labor kind of slowly.
    And that has certainly been happening. The last 
productivity number was well over 2 percent. The productivity 
growth was pretty high. And that has not been reflected in wage 
growth. The wage growth, at least out of this report the 
average hourly earnings I think only grew about well under 2 
percent I think over the past 12 months, which is kind of slow 
growth.
    Representative Cummings. They say that people are--
companies are now realizing that they can do more with less, 
less people, and do you think that that's part of the problem 
there, too?
    Commissioner Hall. I do think that's part of what's going 
on. You know, I think it's something we can all see when you go 
shopping. You can see that the use of technology has really 
changed, and I think that will be one of the interesting things 
to see when this recovery strengthens is how the job recovery 
goes in areas like retail trade, et cetera, where we have 
obvious productivity improvements.
    Representative Cummings. A group of people I am always 
concerned about are those over 50. What are the unemployment 
trends among workers over that age? And do these older workers 
constitute more of the long-term unemployed? Because that's a 
zone which is kind of a difficult one I guess. Employers I 
guess are not anxious to hire older people, and at the same 
time they end up in that twilight zone.
    Commissioner Hall. Yes. The makeup of the long-term 
unemployed is a concern by age. The older workers, for example, 
55 and above, the mean duration of unemployment is something 
over 30 weeks for those folks, which is higher than any other 
age group.
    And that is probably part of why the long-term unemployment 
rate is so high. And unfortunately the longer somebody is 
unemployed, data shows pretty clearly it takes them longer to 
find work.
    Representative Cummings. You know, there is something else. 
We have got this discussion going on with regard to reducing 
the--I mean increasing the age where people become eligible for 
Social Security. As you do your numbers, I am assuming you are 
looking at people who are retiring. You almost have to, right?
    Commissioner Hall. Right.
    Representative Cummings. Are you finding that people are 
retiring later, or earlier? Would your numbers even yield any 
kind of information like that? Are you following me?
    Commissioner Hall. Yes.
    Representative Cummings. Because the argument I make is 
that in my District a lot of people, by the time they get to be 
60, because of the difficulty of their jobs they almost have to 
retire. But in other situations, people may have a job where 
they are sitting down and, you know, not lifting heavy drums 
and things of that nature, and 70, 72 might be a good age. And 
I am just wondering. What are you finding in that regard? Are 
people retiring earlier because they cannot find jobs? I mean, 
what are you finding going on there? Would you have any 
information on that?
    Mr. Rones. What we have seen, actually even throughout the 
recession, is that the older folks are actually staying in the 
labor force longer, as opposed to dropping out.
    Representative Cummings. Okay.
    Mr. Rones. I am sure there are quite a number of reasons 
for that. One is that if you have a job, that job is precious 
and you would tend to hold onto it. But of course a lot of 
people have lost a lot of asset value in their homes and their 
stocks, and so financially it might have been more difficult to 
retire than they might have planned 10 years ago.
    That is really the only group whose labor force 
participation rate has been increasing over the last few years.
    Representative Cummings. Interesting. So under normal 
circumstances, while they might not be counted when you look at 
unemployment, you are seeing at least a slight increase in the 
number of people who are in the pool to be employed now? Is 
that right?
    Mr. Rones. That's right. And so among those people in the 
labor force, of course there has been a growing share that were 
unemployed. That is, that kept looking for work. So some of 
that labor force--by our definition, ``the labor force'' are 
people who are working and those who are unemployed. So some of 
those people are unemployed. But it could be that in other 
periods people would have just, after a certain period of job 
search, they would have just left the labor force, what you 
might call discouraged workers. Now it seems that people are 
more likely to persevere, and so they become, as Commissioner 
Hall said, they become long-term unemployed. That is, they 
continue to look for work where in other periods--well, also in 
other periods they might have been able to retire because, as 
you know, a number of years ago private pensions were much more 
common than they have become now. We are much more dependent on 
the 401(k) type of arrangements, rather than the traditional 
pension.
    Representative Cummings. I see my time has expired. Thank 
you, Madam Chair.
    Senator Klobuchar. Madam Chair, could I just have a point 
of clarification?
    Chair Maloney. Yes.
    Senator Klobuchar. I really appreciate Representative 
Cummings's focus on some of these deficit issues and the Social 
Security. I share his concerns about the age.
    I just want to point out that, as the Deficit Commission is 
coming out with their report, that actually that 
recommendation--because there is so much misinformation out 
there--people who have to be 28 years or younger to have that 
recommendation affect in any kind of increase in the age at 
which you could get Social Security. They have to be 28 or 
younger right now.
    In addition to that, I just think it is worth looking at, 
it also increases the benefits for people when they reach a 
certain age that are older. So I know there is a lot of talk 
about that right now, and I always think it is important to get 
the facts straight, and it is worth looking at that 
recommendation. And of course the focus is to shore up Social 
Security.
    Thank you.
    Chair Maloney. Thank you.
    Commissioner Hall, what was November's long-term 
unemployment rate? In other words, what was the share of the 
civilian workforce that was out of work for 27 weeks or more in 
November?
    Commissioner Hall. It was 4.1 percent.
    Chair Maloney. And what was the highest long-term 
unemployment rate in the past when Congress failed to renew 
Federal Unemployment Benefits?
    Commissioner Hall. Would this be June of 1985? Is that the 
time period?
    Chair Maloney. Well that is what I believe it is, but I am 
asking you.
    Commissioner Hall. My data says I think that it is June of 
1985----
    Chair Maloney. Yes, it is.
    Commissioner Hall [continuing]. I just wanted to make sure 
I am correct.
    Chair Maloney. The chart shows June of 1985 at 7.4 percent 
unemployment.
    [Chart titled ``In Past Economic Downturns, the 
Unemployment Rate Was Far Lower When Congress Allowed Federal 
Unemployment Benefits to Expire'' appears in the Submissions 
for the Record on page 66.]
    Commissioner Hall. The long-term unemployment rate was only 
1.1 percent at that time period.
    Chair Maloney. And can you put these numbers into context 
for me? How many long-term unemployed workers are there now 
versus in the past when we failed to extend unemployment 
benefits?
    Commissioner Hall. Well the number right now is about 6.3 
million. I have the unemployment rate, but I don't think I 
have--we will look up the number for 1985.
    Chair Maloney. Do you have it?
    Commissioner Hall. Yes, we do. It was about 1.3 million, as 
opposed to 6.3 million.
    Chair Maloney. And what share of the unemployed were long-
term unemployed in November versus in the past when federal 
benefits were stopped?
    Commissioner Hall. Well the share of the unemployed that 
are long-term unemployed right now is about 42 percent. We have 
got this.
    Chair Maloney. Thank you.
    [Pause.]
    Commissioner Hall. It was about 15 percent.
    Chair Maloney. Thank you very much.
    Mr. Brady is recognized.
    Representative Brady. Thank you. Let the record note that 
every person under 28 in the room sat up straight after Senator 
Klobuchar talked about the Social Security reforms. But I do 
think it has been helpful for the Deficit Commission to make 
the point that, as life expectancy grows over decades and 
decades, the Social Security age will have to be adjusted at 
some point. But you're talking 30, 40 years in that process.
    A couple of thoughts. I think obviously construction and 
manufacturing are major parts of our economy. We were told with 
the Stimulus Bill that we would see the most job gains in 
manufacturing and construction. But my understanding from your 
remarks is that manufacturing has been flat since the spring, 
in May. Construction employment has also changed little. As 
well, mining employment is up a little bit. Construction and 
manufacturing is not. What happened to all those shovel-ready 
jobs?
    Commissioner Hall. Well I can just tell you where the 
trends were, and I think you fairly characterized the trends in 
the payroll jobs.
    Representative Brady. Energy is obviously a key part of our 
economy. Earlier this year, a terrible BP spill I think 
revealed weaknesses in spill control. But a drilling moratorium 
was put in place pretty hastily over the objections of 
scientists and those who understood energy exploration.
    We have had a shallow-water exploration drilling moratorium 
that continues in many ways because permits simply are not 
being granted to get those workers back to work. Deep-water has 
had an amazing safety record as well over the years, over the 
decades, yet drilling permits still are not being granted 
there.
    Are we continuing to lose--did we continue to lose energy 
jobs in November?
    Commissioner Hall. Let me see here.
    Representative Brady. My sense is it was around 2,000 jobs.
    Commissioner Hall. Yes. We have got mining and logging 
here. I may actually have something a little more detailed. 
Yes. In mining we gained about 4,000 jobs overall.
    Representative Brady. Energy?
    Commissioner Hall. Right. That would be mining of all 
sorts, oil and gas extraction, support activities for mining, 
et cetera.
    Representative Brady. I think I've got oil and gas 
extraction, minus 2,000 jobs?
    Commissioner Hall. Yes, the oil and gas extraction was 
minus 2,000, that's right. But support activities for mining 
may include some things, and that gained 5,500.
    Representative Brady. Petroleum was down 20,000 jobs--no, 
200 jobs is all. So it stayed flat as well. Thank you.
    I know we continue to push the Administration to get these 
energy workers back working. Energy jobs are not expendable in 
America, especially with so many people out of work.
    It is the holiday season. I wish we had better news today, 
but again I want to reiterate and thank you for the work that, 
Commissioner, you and your group do.
    And again, thanks for the leadership of Chairwoman Maloney 
throughout the past two years. It has been a fascinating time 
in our economy. We are all looking for those green shoots as 
positive signs. I know through the next session we will 
continue to do so, as well.
    Chair Maloney. I hope so. Thank you.
    Mr. Cummings.
    Representative Cummings. Just a few questions. You know I 
always ask you the Presidential question. That is, that if the 
President came to you right now and said: ``Commissioner Hall, 
how would you describe the situation? And what do you think we 
should be doing? I mean, are we on the right course?'' How 
would you see this situation, to summarize your report, and 
what would you say to the President?
    Commissioner Hall. Well----
    Representative Cummings. You were ready for that question, 
right? You know I always ask you that.
    [Laughter.]
    Commissioner Hall [continuing]. Well, in terms of looking 
backwards, I think we have had relatively steady job growth 
this year. We have had about 951,000 jobs this year, which is 
good. But the job growth just has not yet strengthened enough 
to start lowering the unemployment rate.
    While it is not unprecedented to have this long period here 
where we are sort of waiting for strong job growth to come on, 
we are going to have to have stronger job growth to start 
putting people back to work and lowering the unemployment rate.
    Representative Cummings. And the other question is that, if 
somebody is looking at this and they are saying I realize I may 
not be able to get a job any time soon, what are my best 
prospects for getting a job? What kind of retraining do I need 
to do? You know, what would you say? In what region of the 
country do I need to be in?
    Commissioner Hall. In terms of sort of the long term job 
prospects, you know, obviously a lot of the service sectors 
like health care, et cetera, are likely to grow over time in 
the next 10 years with our changing demographics. I think that 
in particular.
    There are probably a number of other industries which I do 
not have off the top of my head right now, but we did do some 
long-term employment projections by occupation near the 
beginning of the year. If you like, we can take a look at that 
and summarize some of that for you.
    Representative Cummings. I would love to have that.
    [Letter transmitting Commissioner Hall's response to 
Representative Cummings appears in the Submissions for the 
Record on page 67.]
    Again, I want to thank you, Commissioner, and Mr. Rones, 
and Mr. Horrigan, for all of your hard work. You all have 
helped us tremendously, and I thank you so much. I know 
sometimes you are unseen, unnoticed, unappreciated, and 
unapplauded, and sometimes you bring messages that people do 
not necessarily want to hear, but we do appreciate you. We also 
appreciate the staff that is behind it, the office that's 
looking at us right now, I guess, and we wish you a happy 
holiday.
    And again, Madam Chairman, thank you for your leadership.
    Chair Maloney. Thank you so much.
    This is my last hearing as Chair of the Joint Economic 
Committee. In the last two years, we have had the opportunity 
to examine a whole variety of critical issues that are vital to 
our future and to our country's economic well being.
    In the wake of the Great Depression, this Committee was 
established by the Employment Act of 1946. It seems appropriate 
that the first hearing and the last hearing of this Congress 
have been on the employment situation.
    Dr. Hall, we want to thank you and your team and your staff 
for all of your hard work, for appearing before the JEC each 
month, for your professionalism, and for your public service. 
Thank you.
    Commissioner Hall. Thank you.
    Chair Maloney. I would also like to thank the other members 
of the JEC. I have valued your insights and have thoroughly 
enjoyed our spirited exchange of ideas.
    I would like to especially thank Vice Chairman Schumer, 
Ranking Member Brownback, and Senior Republican House Member 
Mr. Brady. Thank you.
    While this is the last JEC hearing of the 111th Congress, I 
will be issuing at least one more report before the end of the 
year. As the first woman chair of the Joint Economic Committee, 
I have asked the Majority staff to prepare a comprehensive 
overview of women and the economy. I have asked the staff to 
focus on how unleashing women's economic potential will help 
fuel our recovery.
    I look forward to releasing that report before I hand over 
the gavel to the next Chair. Again, I thank all of the members 
of this Committee, and thank you very much, Dr. Hall. Thank 
you.
    Commissioner Hall. Thank you.
    Chair Maloney. This meeting is adjourned.
    [Whereupon, at 10:33 a.m., Friday, November 3, 2010, the 
hearing of the Joint Economic Committee was adjourned.]
                       SUBMISSIONS FOR THE RECORD

 Prepared Statement of Carolyn Maloney, Chair, Joint Economic Committee
    Today's Employment Report from the Bureau of Labor Statistics shows 
the economy added 50,000 private sector jobs last month, making 
November the eleventh straight month of employment gains in the private 
sector.
    Since the beginning of the year, the economy has added 1.2 million 
jobs in the private sector. Private payrolls grew by an average of 
79,000 jobs per month in the first quarter of 2010, 118,000 jobs in the 
second quarter, and 124,000 jobs in the third quarter.
    While job creation has picked up, the unemployment rate remains 
unacceptably high. This morning's employment report showed that the 
unemployment rate edged up to 9.8 percent in November.
    In addition to overall private sector job gains,

    <bullet>  GDP grew by 2.5 percent in the third quarter of 2010 due 
to stronger consumer spending. This is the fifth consecutive quarter of 
growth.

    <bullet>  Retail sales have risen steadily for the past 4 months. 
Excluding the more volatile sales of cars and gasoline, retail sales 
have increased steadily since June.

    <bullet>  Surveys of both the service sector and the manufacturing 
sector show that growth is expected to continue.

    When I became Chair of the JEC in January 2009, the economy was 
still reeling under the shocks of the Great Recession.
    As CEA Chair Christina Romer pointed out at one of our hearings 
last year, our economy endured shocks during the 2007 recession that 
were even greater than those experienced during the Great Depression.
    During the past two years, this Committee has closely monitored the 
employment situation and tracked its rebound.
    We have held close to 50 hearings and issued over 40 reports.
    In 2010, consistent with its mission to monitor the employment 
situation of the country, the Joint Economic Committee focused on job 
creation, holding hearings on problems in the labor market and 
solutions to spur employment.
    Job creation was also the central focus of the JEC annual report, 
our mandated analysis of the Economic Report of the President released 
earlier this year.
    While the economic shocks of the Great Recession will take time to 
heal, our economy has made substantial progress in the past year.
    The policies that Democrats in Congress quickly put into place over 
the last year are working.
    Policies DO matter.
    We passed the HIRE Act, which provides a payroll tax credit for 
businesses that hire unemployed workers.
    We passed legislation to promote hiring by smaller businesses--the 
engines of job creation in our economy--providing additional tax 
incentives to them, helping them access credit, and raising the cap on 
SBA 7(a) loans from $2 million to $5 million.
    We extended aid to states to pay for their increased Medicaid 
costs. We provided additional funding for teachers.
    The Department of Education estimated that 140,000 teacher jobs 
were saved because of this increase in funding.
    We passed legislation to help our domestic manufacturers by 
reducing their tariffs.
    One of the most important things we did for the 40 percent of 
unemployed workers who have been out of work for 27 weeks or longer is 
to extend unemployment benefits for them.
    The most recent extension did not raise the number of weeks that 
unemployed workers could receive benefits; but it did reauthorize the 
program so that unemployed workers could continue receiving those 
critical benefits.
    But we are aware that the latest extension of unemployment 
insurance benefits ran out this week.
    For most of the unemployed, the expiration of these benefits will 
mean that unemployment benefits will stop as soon as they enter their 
27th week of unemployment--at a cruel time when more than 40 percent of 
the unemployed have been out of work at least 27 weeks.
    If Congress does not act quickly to renew these benefits, nearly 2 
million unemployed workers will lose their benefits during the holiday 
season.
    Although preliminary reports show a bump up in consumer spending on 
Black Friday and Cyber Monday, the loss of unemployment benefits will 
have a significant impact on retail spending in the weeks and months to 
come.
    Prematurely ending the federal unemployment insurance benefits 
program will drain the economy of $80 billion in purchasing power and 
cost the economy up to a million jobs over the next year.
    According to the nonpartisan Congressional Budget Office, 
unemployment benefits are one of the most effective tools for boosting 
economic growth and employment.
    Allowing the federal unemployment insurance program to expire when 
the unemployment rate is well over 9 percent would be unprecedented and 
inconceivable.
    Congress never cut off benefits when the pain was this great. 
Previously, Congress has never let benefits expire with an unemployment 
rate above 7.4 percent.
    There are 5 unemployed workers for every job opening. Moreover, 
fewer than 1 in 10 unemployed workers looking for work for a year or 
more is likely to find a job in the coming months.
    This is a tragic time to break from precedent--it is unfair to the 
millions of families counting on these benefits, and unwise for an 
economy that is still recovering from the Great Recession.
    I hope that we can count on our Republican colleagues in both 
chambers to do the right thing and vote to maintain the current federal 
unemployment insurance program.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            Prepared Statement of Representative Kevin Brady
    Today we hold the last regularly scheduled employment hearing with 
the Bureau of Labor Statistics in the 111th Congress. Like all 
Americans hoping for an economic turnaround, this has been a difficult 
two years for members of the Joint Economic Committee with employment 
reports month after month showing large numbers of our fellow Americans 
out of work and stubbornly high rates of unemployment. But the focus of 
this Committee on the employment situation is a critical part of its 
function as no other aspect of the nation's economic wellbeing is more 
important than the ability of our citizens to find productive work.
    Dr. Hall has had the difficult task of presenting the many reports 
on the bleak employment conditions to us. He has done so in a 
professional and insightful manner. I want to thank him and his staff 
at the Bureau of Labor Statistics for the effort they make to compile 
the employment data in meaningful ways and for answering our questions. 
I welcome Dr. Hall again this morning.
    Chairwoman Maloney has held many additional hearings on various 
aspects of the labor market. I want to thank the Chairwoman for her 
compassion and dedication in setting the Committee's agenda. We 
appreciate her leadership. I also want to thank Vice Chairman Schumer 
for his contributions to the JEC.
    Senator Brownback will be leaving the U.S. Senate next year to 
assume his new duties as the governor of the state of Kansas. I 
sincerely thank him for his service as the ranking member on this 
committee during the 111th Congress and congratulate him on his new 
leadership position. All the best to you, your family, and the state of 
Kansas, Sam.
    As we approach the end of the year and of this Congress, the 
national employment picture unfortunately remains bleak. The 
unemployment rate increased to 9.8 percent mainly due to an increase in 
the number of job losers. And this month's 39,000 increase in payroll 
employment was very disappointing given the expectations. Worse still 
is the fact that we have lost 101,000 payroll jobs since the recession 
officially ended 17 months ago.
    Economic indicators generally tell us that we are making a 
painfully slow recovery. In November, total payroll employment was not 
significantly different than it was 17 months ago when the recession 
officially ended. Unfortunately, this recovery is too weak and private 
sector job growth too slow to reduce the unemployment rate appreciably, 
while the federal work force thrives. In contrast, by the 17th month of 
the Reagan recovery after the severe 1981-82 recession, total payroll 
employment had increased by 5.0 million, and the unemployment rate had 
fallen by 3.1 percentage points to 7.7 percent.
    Why is the current recovery so weak? Among the timeliest 
explanations is this: within less than one month Americans are facing a 
nearly $4 trillion tax hike. We cannot expect small, mid-size or even 
larger businesses to take on large numbers of additional employees when 
the government is raising the cost for employing them gainfully.
    Yesterday's House vote on a bill that is dead on arrival in the 
Senate was a waste of time. I don't mean to be too blunt, but raising 
taxes on the consumers and small businesses we depend on the most to 
put this economy back on track is a dumb economic move. No wonder 
substantial numbers of jobs aren't being created in America.
    To make matters worse, within a few days the federal government 
will run out of money. Congressional Democrats and the Administration 
have not been attending to their responsibilities. A frantic rush for 
band-aid fixes is no way to provide guidance to the economy.
    In addition to the looming increases in anti-growth tax rates, the 
out-of-control federal spending and the enormous national debt built-
up, I have many times addressed the Democrats' ill-conceived health 
care and energy policies and the failed stimulus. I will not repeat 
those points here, but the burdens and uncertainty they create 
contribute to the fundamental reasons why the economy is not recovering 
faster.
    If we are to see faster economic growth and more rapid job 
creation, the Administration will have to relent from wasteful, 
redistributionist policies and the futile attempt to compensate for 
them with economic pump-priming measures, be they fiscal or monetary. 
The government cannot take up position against business, investment, 
wealth creation, domestic oil, gas, and coal production, and free trade 
and expect the economy to grow based on minimum wage increases, 
extensions of unemployment benefits, and increased subsidies to a 
plethora of causes. The U.S. economy does not work that way, and I 
doubt there are any that do. The Administration has been hearing as 
much from national leaders around the world.
    Dr. Hall, I look forward to hearing your testimony.
                               __________
    Prepared Statement of Keith Hall, Commissioner, Bureau of Labor 
                               Statistics
    Madam Chair and Members of the Committee:
    Thank you for the opportunity to discuss the employment and 
unemployment data we released this morning.
    Nonfarm payroll employment was essentially unchanged in November 
(+39,000), and the unemployment rate edged up to 9.8 percent. The 
jobless rate had been 9.6 percent in each of the prior 3 months. 
Payroll employment has increased by an average of 86,000 per month 
since its recent low point in December 2009. In November, temporary 
help services and health care added jobs, while employment fell in 
retail trade.
    Temporary help services employment increased by 40,000 over the 
month. Since the industry's most recent low in September 2009, 
employment has grown by 494,000.
    In November, health care employment rose by 19,000, including a 
gain of 8,000 in hospitals. Thus far in 2010, the health care industry 
has added an average of 21,000 jobs per month, about in line with 
average monthly job growth in 2009.
    Retail trade employment decreased by 28,000 in November, including 
declines in department stores (-9,000) and in furniture and home 
furnishings stores (-5,000). Other major service-providing industries 
showed little employment change in November.
    Manufacturing employment changed little over the month. Following 
job growth earlier in 2010, factory employment has been relatively 
flat, on net, since May. Elsewhere in the goods-producing sector, 
construction employment also changed little in November, while mining 
employment continued to trend up.
    Average hourly earnings of all employees on private nonfarm 
payrolls were up by 1 cent in November to $22.75. Over the past 12 
months, average hourly earnings have risen by 1.6 percent. From October 
2009 to October 2010, the Consumer Price Index for All Urban Consumers 
(CPI-U) increased by 1.2 percent.
    Turning now to measures from the survey of households, the 
unemployment rate edged up to 9.8 percent in November. Of the 15.1 
million persons unemployed in November, 41.9 percent had been jobless 
for 27 weeks or more. That proportion has been essentially unchanged 
since August. Among the employed, there were 9.0 million individuals 
working part time in November who preferred full-time work, about the 
same as in October.
    The labor force participation rate was unchanged at 64.5 percent in 
November. Among those outside the labor force--that is, persons neither 
working nor looking for work--the number of discouraged workers in 
November was 1.3 million, up from 861,000 a year earlier. These 
individuals were not looking for work because they believe no jobs are 
available for them.
    In summary, the unemployment rate edged up to 9.8 percent in 
November, and payroll employment was essentially unchanged.
    My colleagues and I now would be glad to answer your questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
